No. 20-1331

SUPREME COURT OF THE UNITED STATES

Arthur J. Clemens Jr.,
Petitioner
Vs.
Tom Balanoff
Laura Garza
Nancy Cross
Local One, Service Employees International Union
Respondents

Petition for Rehearing of
Denial of Petition for Writ of Certiorari to
the United States Court of Appeals
for the Eighth Circuit

SUPREME COURT RULE 44
PETITION FOR REHEARING OF DENIAL OF
PETITION FOR WRIT OF CERTIORARI

Arthur J. Clemens Jr., Pro Se
400 N. 4th Street, #1008
St. Louis, MO 63102 .
314-297-8474
Email: Lawscan2001 @yahoo.com

COMES NOW THE PETITIONER AND IN SUPPORT OF HIS RULE 44
PETITION FOR REHEARING, STATES AND ALLEGES AS FOLLOWS:
1. Petitioner paid a $300 filing fee with the Clerk of the Court to have his
petition in its entirety reviewed and ruled on by the Supreme Court after the
Petition in its entirety was posted on the Supreme Court website for possible
review by any and all members of the public who would be interested in this case,
which might include the press, labor organizations, civil rights organizations, and
members of Congress, including members of Committees who have an interest in
investigating Labor Union practices and proposing legislation or repeal of
legislation related to the subject matter of this case.
2. The Clerk did not post the Petitioner’s pleadings in their entirety on the
internet, and approximately one page of text was omitted. The missing text is
partly from one page and partly from the next page of the Petitioner’s original
paper submission. Additionally, Appendices G and H have not been posted on the
internet, and instead a notice is posted, stating “Additional material from this filing
is available in the Clerk’s office.” even though the Clerk’s office was closed to the
public due to the pandemic at the time this notice was posted.

3. The missing text, which would have been labeled as page 3 if it was
included is as follows in bold type:
temporary injunctions to stop the destruction of records older than five
years starting in 2015, and to stop a membership meeting vote to create
the office of Executive Vice President pending a ruling in this case, and
on August 24,2020 affirmed the ruling of the Trial Court after three
working days of consideration. Petition for rehearing and hearing en
banc was denied on October 20, 2020, without the signature of any
Judges.
Further details of the case are contained in Statements in Support of
Questions.
A. STATEMENT IN SUPPORT OF QUESTION 1.
Local One, Service Employees International Union has 50,000 rank and
file members spread out over 6 states, with its headquarters in Chicago.
(See 2019 OLMS LM-2 Report#) It is not possible under the Local One
Constitution and Bylaws or the rules of the Department of Labor, Office of
Labor and Management Standards (Appendix D), for a rank and file
member from St. Louis, Missouri running for Local-wide office to have any
chance to be elected to Local-wide office because the Local with the support
of the Department of Labor, OLMS, acting under the color of the authority
of 29 USC 481(c), will not provide a rank and file member attempting to
qualify to be on the ballot to run for Local office with a list of the names,
addresses, email addresses, and phone numbers of the rank and file
membership. 29 USC 481(c) was passed in 1959, long before the
introduction of the internet. Members of Congress voting to pass said
clause were

4. Missing page one of APPENDIX G Department of Labor, OLMS Publication
“Conducting Local Union Officer Elections” Chapter 7, REQUIREMENTS, para 3
is as follows:

Conducting Local Union
Officer Elections

4p

A Guide for Election Officials
[
p
||
i
I

secret ballot candidates democracy right to vote nominations observers
polling place voter eligibility campaign literature constitution voting booth
adequate safeguards ballot box electio
ambers in good standing
baigning qualifications
eligibility list election officials
It ballot voter eligibility
ballot tally op
candidates \
■bservers polling place
campaign lita
voter register!
election notice!

s

i

■v opportunity to vote
■guards campaigning
■ist equal treatment
ballot box sea
■> vote nominations
observers poll
■re election officials
constitution era
■ booth ballot box
members in gooa
■ist voter register
qualifications ba\
■ampaign literature
voting booth sec!
■pox Constitution
democracy right !
■ons ballot tally
campaigning adera
. «g eligibility list
election officials va
■e secret ballot
opportunity to vote \
■s democracy
right to vote nomin
wi candidates
nominations ballot t
■lection notice
equal treatment votert
unity to vote
voter eligibility obsenl
polling place
election notice campa'
qualifications
ballot box secret ballo
right to vote nominations
p^^nist
ballot
tally
observers right to vote
constitution voting boo
secret ballot candidates democracy right to vote nominations observers
polling place voter eligibility campaign literature constitution voting booth
members in good standing ballot box election notice adequate safeguards

o
o

U.S. Department of Labor

Employment Standards Administration
Office of Labor-Management Standards

5. Missing page two of APPENDIX G Department of Labor, OLMS
Publication “Conducting Local Union Officer Elections” Chapter 7,
REQUIREMENTS, para 3 is as follows:

Inspecting the Membership List

□
□

Chapter 7 g)
I n addition to having campaign literature distributed by the union as discussed in Chapter 6,
I candidates in union officer elections also have a right to inspect a list of members (and their
addresses) subject to a collective bargaining agreement which requires union membership as a
condition of employment. This right to inspect is limited to once within 30 days before the election
and does not include the right to copy toe list. In most unions toe officer who maintains toe
membership list will be responsible for making toe list available to candidates; election officials will
not usually be involved. However, to avoid any misunderstandings, election officials should
determine from union officials what procedures will be used to allow inspection and then inform
all candidates about them. In addition to permitting inspection, toe union may not discriminate
in favor of, or against, any candidate with respect to toe use of lists of members.

Requirements
□ A candidate’s right to inspect toe union's
membership list is limited to a list of
members who are subject to a collective
bargaining agreement which requires union
membership as a condition of employment
□ Even if union membership is not required
as a condition of employment toe union
may nevertheless decide to allow inspection
of its membership list. If toe union decides
to do so, it must treat all candidates
equally and notify them of the decision to
allow inspection.
_______ __________
a"‘fhe right to inspect toe membership list is
limited to one time within 30 days before
toe election or 30 days before toe mailing of
ballots in a mail ballot election.
□ A union must allow a bona fide candidate
who is seeking to be nominated to run for
office toe opportunity to inspect toe
membership list once within 30 days before
the election.
□ The union is required to maintain toe
membership list at its principal office but is
not required to provide for inspection at
other places, such as a satellite union office
or work locations of members.

□ Candidates do not have toe right to copy
the membership list, only toe right to
inspect and/or compare it with a personal
list of members.
□ If a candidate is permitted to use toe
membership list for any purpose other than
inspection (such as copying), toe union
must inform all candidates of toe
availability of toe list for that other purpose
and give the same privilege to all
candidates who request it
□ A candidate has a right to a copy of the
union's list of employers only if another
candidate uses toe union's list of employers
for campaigning. (However, under Section
104 of toe LMRDA a member is entitled to
review all collective bargaining agreements
to which toe union is a party.)

Suggestions
□ Election officials should discuss with toe
• union official responsible for toe
membership list where, when, and how it
will be made available for Inspection and to
whom requests for inspection should be
directed.
Q To avoid charges of unequal treatment
among candidates, election officials should
notify all candidates in advance of the

6. Missing page, APPENDIX H List of 11 Membership Meeting Places, and first
page of notice of 2017 membership meeting vote, is listed below (as found in the
original Court File on pacer.gov):
Case: 4:17-cv-02381-RLW Doc. #: 1-12 Filed: 09/08/17 Page: 1 of 1 PagelD #: 40
TO: All Members
FROM: Laura Garza, Secretary-Treasurer
DATE: April 18,2017
RE: Vote on Proposed Amendment to SEIU Local 1 Constitution and Bylaws
In November 2016, member Arthur Clemens proposed an Amendment to Article IX of
the SE1LJ Local 1 Constitution and Bylaws. A copy of the proposed Amendment to Article IX is
attached.
Consistent with Article XXVI, Section 1, of the Local's Constitution and Bylaws, the
proposed Amendment was presented to the Executive Board at its March 3, 2017, meeting, for
determination as to whether the Executive Board would recommend approval of the
Amendment. The Executive Board discussed the matter and voted to reject approval of the
proposed amendment to the SEIU Local 1 Constitution and By-Laws.
Consistent with Article XXVI, Section 1, of the Local's Constitution and Bylaws, the
proposed Amendment (attached) will be presented to the membership at the following scheduled
membership meetings for consideration and a vote:
Akron June 3, 2017
@9:00 a.m.
i Garfield HS Cafeteria
435 N Firestone Blvd,
Akron,
OH44301
Cleveland
June 3, 2017 @ 12:00 p.m.
1368 East 34th Street
Cleveland, OH 44114
Indianapolis
June 3, 2017@ 1:00 p.m.
1734 W. Washington
Indianapolis, IN 46222
St. Louis June 3,2017@
11:00 a.m.
Chicago
2725 Clifton Ave.
St. Louis, M.O 63139

June,3,2017@ 11:00 a.m.
1340 W. Washington Blvd.
Chicago, IL 60607
Columbus
June 3,2017@ 1:00 p.m.
225 East Broad Street
Columbus, OH 43215
Kansas City
June 3, 2017 @ 10:00 a.m.
4526 Paseo Blvd.
Kansas City, MO 64110
Toledo
June 3, 2017 @11:30 a.m.
Upstairs in Parlor "D"2300
Ashland Ave. Toledo, OH
43620

Cincinnati
June 3, 2017@ 12:00 p.m.
917 Main St
Cincinnati, OH 45202
Detroit
June 3, 2017@ 10:00 a.m.
2211 E. Jefferson Ave.
Detroit, MI 48207
Milwaukee
June 3, 2017 @ 12:00 p.m.
250 E. Wisconsin Ave.
Basement
Milwaukee, WI 53202

«v .

Case: 4:17-cv-02381-RLW Doc. #:„1-12 Filed: 09/08/17 page:
/

©

F

TO:

All Members

FROM:

Laura Garza, Secretary-Treasurer

DATE:

April 18,2017

RE:

Vote on Proposed Amendment to SEIU Local 1 Constitution and Bylaws

In November 2016, member Arthur Clemens proposed an Amendment to Article IX of
the SEIU Local 1 Constitution and Bylaws. A copy of the proposed Amendment to Article IX is
attached.

'

Consistent with Article XXVI, Section 1, of the Local’s Constitution and Bylaws, the
proposed Amendment was presented to the Executive Board at its March 3,2017, meeting, for
determination as to whether the Executive Board would recommend approval of the
Amendment. The Executive Board discussed the matter and voted to reject approval of the
proposed amendment to the SEIU Local 1 Constitution and By-Laws.
Consistent with Article XXVI, Section 1, of the Local’s Constitution and Bylaws, the
proposed Amendment (attached) will be presented to the membership at the following scheduled
membership meetings for consideration and a vote:

©

©

Akron

Chicago

June 3,2017 @ 9:00 a.m.

June 3,2017 @ 11:00 a.m.

Garfield HS Cafeteria
435 N Firestone Blvd, Akron,
OH 44301

1340 W. Washington Blvd.
Chicago, IL 60607

Cincinnati
June 3,2017 @ 12:00 p.in.
917 Main St:
Cincinnati, OH 45202

Cleveland
June 3,2017 @ 12:00 p.m.
1368 East 34th Street
Cleveland, OH 44114

Columbus
June 3,2017 @ 1:00 p.m.
225 East Broad Street
Columbus, OH 43215

Detroit
June 3,2017 @ 10:00 a.m.
2211 E. Jefferson Ave.
Detroit, MI 48207

Indianapolis
June 3,2017 @ 1:00 p.m.
1734 W. Washington
Indianapolis, IN 46222

Kansas City
June 3,2017 @ 10:00 a.m.
4526 Paseo Blvd.
Kansas City, MO 64110

Milwaukee
June 3,2017 @ 12:00 p.m.
250 E. Wisconsin Ave.
Basement
Milwaukee, WI53202

St Louis
June 3,2017 @ 11:00 a.m.
2725 Clifton Ave.
St. Louis, MO 63139

Toledo
June 3,2017 @11:30 a.m.
2300 Ashland Ave.
Upstairs in Parlor “D”
Toledo, OH 43620

>v/V

b

7. Petitioner discovered the omission of the missing page on May 20, 2021, and
immediately notified the webmaster by email of this error in the hopes it would be
quickly corrected.
8. The webmaster responded to Petitioner’s email. See Exhibit A.
9. Petition was denied on March 24, 2021.
10. At the time of the Petitioner’s submission of this Rule 44 Petition for
Rehearing said text is still missing.
11. There is no indication that members of the Supreme Court had an
opportunity to read the missing text before making their ruling denying Petition for
Writ of Certiorari in this case.
12. The Clerk has not fulfilled his legal obligation when accepting Petitioner’s
filing fee to properly post said Petition online for public consideration. Therefore,
no additional fee should be necessary for the filing of this petition for rehearing.
13. Approximately 60 days elapsed before Petitioner discovered this error,
during which time any parties who might be interested in this case were denied the
opportunity to read the petition in its entirety and file Amicus Curiae briefs or enter
as an intervenor.
14. The missing pages make it impossible for anyone reading said Petition on
the internet to determine if the Petitioner’s petition has merit, since the very heart
of the Petitioner’s case has been cut out. In particular, the missing Appendix G

supports the Petitioner’s Constitutional argument made on the missing page three
that “It is not possible under the Local One Constitution and Bylaws or the
rules of the Department of Labor, Office of Labor and Management
Standards (Appendix D), for a rank and file member from St. Louis, Missouri
running for Local-wide office to have any chance to be elected to Local-wide
office because the Local with the support of the Department of Labor,
OLMS, acting under the color of the authority of 29 USC 481(c). will not
provide a rank and file member attempting to qualify to be on the ballot to
run for Local office with a list of the names, addresses, email addresses, and
phone numbers of the rank and file membership.
Also, Appendix H clearly shows that Local One, SEIU had eleven different
places where membership meetings are held on the same day, and it is not possible
for members to have Freedom of Assembly at membership meetings, since no rank
and file member can be in 11 places at the same time.
15. The actions of the Clerk of the Supreme Court when posting only part of this
petition on the internet have violated the Petitioner’s First Amendment Right to
Freedom of Speech and Freedom of Assembly with the public, to include all
parties interested in this case who can communicate by internet, and that
interference compounds the denial of the Freedom of Assembly rights that the

V.'

Petitioner is arguing that the Respondents in this case in cooperation with the
Department of Labor are violating.

WHEREFORE, PETITIONER PRAYS THAT THE ORIGINAL PETITION BE
POSTED FOR THE PUBLIC TO READ IN ITS ENTIRETY, ALONG WITH A
PUBLIC NOTICE EXPLAINING THIS ERROR, FOR SIXTY DAYS, AFTER
WHICH TIME PETITIONER RESPECTFULLY REQUESTS THAT THE
SUPREME COURT RULE ON THIS PETITION FOR REHEARING.

CERTIFICATE OF STATEMENT OF INVERVENING
CIRCUMSTANCES OF SUBSTANTIAL
OR CONTROLLING EFFECT

I, Arthur J. Clemens Jr., am of sound mind, and am fully competent to state to
the matters herein. I certify under oath that this Petition for Rehearing is filed on
the basis of intervening circumstances of substantial or controlling effect that took
place after I submitted my initial petition.
These circumstances include the failure of the Supreme Court Clerk to properly
file my Petition as a matter of public record to which the public and interested
parties had reasonable access, as stated in detail in the Petition for Rehearing I am
submitting.
SIGNED:
DATE:

1/

-7' 7 —V

CERTIFICATE OF GOOD FAITH
I, Arthur J. Clemens Jr., am of sound mind, and am fully competent to state to
the matters herein. I certify under oath that this Petition for Rehearing is filed in
good faith and is not filed for the purpose of delay.
I would further point out that delay is of no advantage to me whatsoever, since I
am a dues paying rank and file member of Local One, SEIU.
SIGNED:
DATE:

